HHS/OIG, Audit - "Review of Medicaid Inpatient Psychiatric Claims
for 21 To 64 Year Old Residents of Private Psychiatric Hospitals That Are Institutions
for Mental Diseases in California During The Period July 1, 1997 Through January
31, 2001," (A-09-02-00061)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Inpatient Psychiatric Claims for 21 To 64 Year Old
Residents of Private Psychiatric Hospitals That Are Institutions for Mental
Diseases in California During The Period July 1, 1997 Through January 31, 2001,"
(A-09-02-00061)
December 24, 2002
Complete Text of Report is available in PDF format
(4.75 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if the state of California had
adequate controls to preclude claiming federal financial participation (FFP)
under the Medicaid program for inpatient psychiatric services provided to residents
who were ages 21 to 64 in private psychiatric hospitals that were IMDs.
Federal Medicaid law and regulations prohibit FFP for this care.  Our review
found that adequate controls were not in place to preclude the state from inappropriately
claiming FFP.  As a result, during the period of July 1, 1997 through January
31, 2001, the state claimed $3,083,389 in unallowable FFP for improper Medicare/Medicaid
crossover claims for inpatient psychiatric care.  We recommended that the
state (1) refund $3,083,389 to the Federal Government; (2) establish controls
to prevent FFP from being claimed for IMD residents aged 21 to 64 in private
psychiatric hospitals; (3) identify and refund any unallowable FFP claimed for
inpatient psychiatric care provided to IMD residents aged 21 to 64 in private
psychiatric hospitals subsequent to January 31, 2001, the cut-off date of our
audit, and (4) identify and refund any unallowable FFP claimed for inpatient
psychiatric care provided to IMD residents aged 21 to 64 in private psychiatric
hospitals for the period July 1, 1987 through June 30, 1997.  State officials
agreed with our audit recommendations.